"Programmatic Review of Multi-State Foster Care Data Archive University of Chicago's Chapin Hall Center for Children and Families, Chicago, Illinois," (A-05-01-00084)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Programmatic Review of Multi-State Foster Care Data Archive University
of Chicago's Chapin Hall Center for Children and Families, Chicago, Illinois,"
(A-05-01-00084)
July 31, 2001
Complete Text of Report is available in PDF format
(119kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This report provides you with the results of our programmatic review of Grant
No. 90CA1620 awarded to the University of Chicago.  Our review focused
on the grantees performance in achieving project objectives and complying with
the terms and conditions of the grant project.  We found that the grantee
met the objectives and goals of the grant in the development and creation of
a multi-state foster care data archive.